OFFICE OF THE ATTORNEY GENERAL
Carolyn M. Snurkowski
Assistant Deputy Attorney General

 

PL-O1 The Capitol

Tallahassee, FL 32399-1050

ASHLEY MOODY Phone (850) 414-3300
ATTORNEY GENERAL Fax (850) 487-0168
STATE OF FLORIDA http:/vww.myfloridalegal.com

November 13, 2020

The Honorable Scott S. Harris,
Clerk of Court

Supreme Court of the United States
One First Street N.E.

Washington D.C. 20543-0001

VIA ELECTRONIC DELIVERY

Re: Robin Lee Archer v. Florida,
Case No. 20-6043 — Capital Case

Dear Mr. Harris:

Respondent, the State of Florida, requests a thirty-day extension of time to file its
Brief in Opposition to the petition. Sup. Ct. R. 30.4. This Petition was filed earlier in
the year and had to be corrected. Our office just found the corrected petition today
and does not know when it was received by our office. We respectfully request thirty
days in which to prepare our response. Petitioner's Counsel, Martin J. McClain was
contacted and has no objection. Therefore, Respondent requests until Wednesday,
December 16, 2020, to file the brief in opposition.

Sincerely,

‘of

Carolyn M. Snurkowski

Associate Deputy Attorney General
Counsel of Record

OFFICE OF THE ATTORNEY GENERAL
CAPITAL APPEALS

PL-01, THE CAPITOL

TALLAHASSEE, FL 32399-1050
(850)414-3300
carolyn.snurkowski@myfloridalegal.com

Copies mailed to Martin J. McClain, 141 N.E. 30" Street, Wilton Manors, FL 33334 , this 13" day of
November, 2020.
